No.

IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES A. DREAD

- PETITIONER
VS.

MARYLAND STATE POLICE

RESPONDENT(S)

PROOF OF SERVICE

I,

CHARLES A. DREAD

y do swear or declare that on this date, of August

16th, 2021, as

required by Supreme Court Rule 29.4(b) and 28 USC section 2403(a) where the Constitutionality of an
Act of Congress is drawn into Question, I have served the enclosed PETITION FOR A WRIT of
CERTIORARI with Record Extract and Summary Judgment, on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Mrs. Elizabeth Preloaar, Solicitor General

Brian Frosh. Attorney General

950 Pennsylvania Ave.. N.W. Room 5616

1201 Reisterstown Road

Washington D.C., Maryland 20530-0001

Pikesville. MD. 21208

(2021 514 -2203

(410J 653-4227

I declare under penalty of perjury that the foregoing is true and correct.

~2QT~\

Executed on

Sworn arid subscribed to before me

this

/te

day of

t20IL. I

hxj2^LA.
Andre Haggins
Notary Public
My Commission Expires 6/24/2023

(Signature)

RECEIVED
AUG 1 8 2021

i

No.

IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES A. DREAD

PETITIONER
VS.

MARYLAND STATE POLICE

- RESPONDENT(S)

PROOF OF SERVICE

I,

CHARLES A. DREAD

i

j do swear or declare that on this date, of August

16th, 2021, as

required by Supreme Court Rule 29.4(b) and 28 USC section 2403(a)where the Constitutionality of an
Act of Congress is Drawn into question, I have served the enclosed PETITION FOR A WRIT of
CERTIORARI with Record Extract and Summary Judgment, on each party to the above proceeding or
that party's Counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and with
first-class postage

prepaid, or by delivery to a third-party commercial carrier for delivery within 3

calendar days.
The names and addresses of those served are as follows:
Honorable Larry Hoaan. Governor

Mark H. Bowen. Assist. Attorney General

100 State Circle

1201 Reisterstown Road

Annapolis. Maryland 21401-1925

(4101 974-3901

.. Pikesville, MD. 21208

(4101 653-4293

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

\b-ZQ2-l
Sworn and subscribed to before me
this
day of
20
(

(Signature)

7a

Andre Haggins
Notary Public
My Commission Expires 6/24/2023

x /

.

I

